U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




 TOP TEN MANAGEMENT CHALLENGES

                                    March 2004
                  MAJOR CHALLENGES
                                     FOR THE
 U.S. DEPARTMENT OF COMMERCE
                                 TOP 10 CHALLENGES

  1. Strengthen Department-wide information security.
  2. Effectively manage departmental and bureau acquisition processes.
  3. Successfully operate USPTO as a performance-based organization.
  4. Control the cost and improve the accuracy of Census 2010.
  5. Increase the effectiveness of marine resource management.
  6. Promote fair competition in international trade.
  7. Enhance export controls for dual-use commodities.
  8. Enhance emergency preparedness, safety, and security of Commerce facilities
     and personnel.
  9. Strengthen financial management controls and systems.
10. Continue to improve the Department’s strategic planning and performance
     measurement in accordance with GPRA.




The Office of Inspector General, in assessing its work at the close of each semiannual
period, develops the Top 10 Management Challenges the Department faces. Each
challenge meets one or more of the fo llowing criteria: (1) it is important to the
Department’s mission or the nation’s well-being, (2) it is complex, (3) it involves sizable
expenditures, or (4) it requires significant management improvements. Because of the
diverse nature of Commerce activities, many of these criteria cut across bureau and
program lines. We believe that by addressing these challenges the Department can
enhance program efficiency and effectiveness; eliminate serious operational problems;
decrease fraud, waste, and abuse; and achieve substantial savings.




Major Challenges for the                     1                                March 2004
U.S. Department of Commerce                                   Office of Inspector General
CHALLENGE 1
STRENGTHEN DEPARTMENT-WIDE INFORMATION SECURITY

Many of Commerce’s information technology systems and the data they contain have
national significance: the Bureau of Industry and Security’s (BIS’) export license data
helps control the release of dual-use commodities to countries and entities of concern;
the National Oceanic and Atmospheric Administration’s (NOAA’s) satellite, radar, and
weather forecasting data and systems provide information used to protect lives and
property; the Economics and Statistics Administration’s (ESA’s) economic indicators
have policymaking implications that can affect the movement of global commodity and
financial markets; and the U.S. Patent and Trademark Office’s (USPTO’s) patent and
trademark information is essential to administering patent and trademark law, promoting
industrial and technical progress, and strengthening the national economy. Loss of or
serious damage to any of the critical systems containing this data could have devastating
impacts. Therefore, identifying weaknesses in these systems and recommending solutions
is a continuing top priority for the Office of Inspector General. The Federal Information
Security Management Act (FISMA), signed into law on December 17, 2002, provides a
comprehensive framework for ensuring that information resources supporting federal
operations and assets employ effective security controls. FISMA requires OIGs to
perform independent security evaluations of their agencies annually.

As we reported in our last semiannual (see September 2003 Semiannual Report, page 37),
the Department’s chief information officer (CIO), with the support of the Deputy
Secretary, has worked hard to improve information security Department-wide, and
noteworthy progress has been made. Considerable challenges persist, however, in
ensuring adequate security on the hundreds of Commerce systems. This effort requires
(1) assessing risk and determining appropriate security controls, (2) testing and
evaluating these controls, (3) certifying and accrediting systems, 1 and (4) ensuring that
personnel with specialized information security responsibilities receive the necessary
training.

As we advised in our FISMA reports, the Department has reported information security
as a Federal Management Financial Integrity Act (FMFIA) material weakness in its
Performance & Accountability Report for the past 3 fiscal years. Similarly, USPTO,
which submits its Performance & Accountability Report separately, reported
information security as an FMFIA material weakness the past 2 fiscal years. The
Department, including USPTO, had set a goal of certifying and accrediting all systems
that are part of the critical infrastructure or mission critical by the end of FY 2003.
Although 97 percent of the Department’s systems were reported as certified and
accredited by that milestone, our FY 2003 FISMA evaluation revealed that many systems

1
 Certification is the formal testing and evaluation of the security safeguards on a computer system to
determine whether they meet applicable requirements and specifications. Accreditation is the formal
authorization by management for system operation, including an explicit acceptance of risk.


Major Challenges for the                             2                                   March 2004
U.S. Department of Commerce                                              Office of Inspector General
reported as certified and accredited contained significant deficiencies in their risk
assessments, security plans, and contingency plans—i.e., certification and accreditation
materials. Most also lacked evidence that security controls had been tested. Using a
disciplined certification and accreditation process, USPTO planned to have its mission-
critical systems and its classified system certified and accredited by the end of FY 2003,
but was not able to accomplish this goal. USPTO reports that all of these systems were
certified and accredited by March 29, 2004. The Department is now working to complete
all system certifications and accreditations and improve their quality in FY 2004. Our
ongoing FISMA evaluation for this fiscal year includes reviews of the Census Bureau’s
information security program and the Department’s computer incident response
capability, as well as assessments of the quality and content of system certifications and
accreditations and plans of action and milestones (POA&Ms). 2

CONTRACT SECURITY WEAKNESSES

We noted in our last semiannual (see September 2003 Semiannual Report, page 37) that
inadequate secur ity provisions in Commerce IT service contracts also place systems at
risk. The Department continued to rely heavily on contractors to provide IT services in
FY 2003, spending 65 percent of its IT contract dollars on this area. Our FY 2003 FISMA
evaluation found that while progress had been made in incorporating security provisions
into recent IT service contracts, 3 provisions for controlling contractor access to
Department systems and networks were generally absent, and there was little evidence of
contract oversight or of coordination among contracting, technical, and information
security personnel in developing appropriate contract security. We summarized these
findings in our September 2003 FISMA report, noting that the Department was finalizing
standard contract clauses for safeguarding information resources. We are currently
preparing a report that provides additional discussion of these findings as well as
recommendations to further ensure that information and information systems are
adequately secure when contractor-provided services are used. This report notes that the
contract clauses were issued in November 2003. We are recommending that the
Department take steps to ensure that its service contracts contain the new security clauses
and that appropriate contract oversight occurs.

CHALLENGE 2
EFFECTIVELY MANAGE DEPARTMENTAL AND BUREAU
ACQUISITION PROCESSES

Federal acquisition legislation in the 1990s mandated sweeping changes in the way
federal agencies buy goods and services. The intent was to reduce the time and money

2
 OMB guidance directs agencies to develop plans of action and milestones (POA&Ms) to correct program-
and system-level IT security weaknesses and track each deficiency until it is corrected.
3
 The term “contract” includes task orders and delivery orders issued under multiple award contracts and
government-wide agency contracts (GWACs).


Major Challenges for the                            3                                  March 2004
U.S. Department of Commerce                                            Office of Inspector General
spent on purchasing, and improve the efficiency of the process. The latest legislative
effort to streamline acquisition is the Services Acquisition Reform Act of 2003, whose
provisions further push for performance-based service contracting: the act provides that
service contracts under $25,000 may be treated as “commercial” if certain performance-
based criteria are met and thereby be eligible for simplified acquisition procedures. As
the Department’s reliance on contractor-provided services increases, so does the
challenge to understand and effectively manage the new acquisition processes these
initiatives fostered. At the same time, Commerce must be careful to ensure that taxpayer
dollars are wisely spent and laws and regulations followed when using streamlined
procedures.

This balance is best maintained by adhering to basic acquisition principles: careful
planning, promotion of competition, prudent review of competitive bids, adept contract
negotiations, well-structured contracts, and effective contract management and oversight.
These are essential to ensuring that sound contracting decisions are made and contracts
successfully executed. Problems we have identified with service contracting in the past
include failure to use performance-based task orders where they would be beneficial;
inadequate training in the use of performance-based service contracting; insufficient
planning for contract administration and monitoring; and failure to ensure that adequate
security provisions are included and enforced in IT service contracts.

We are currently monitoring certain major acquisitions related to the 2010 decennial
census and intend to review the acquisition management process, from planning through
contract closeout, at selected bureaus. The use of performance-based service contracting,
where applicable, will be a key focus of our acquisition reviews.
(GWACs).

DEPARTMENTAL INITIATIVES

The Department agrees that acquisition planning and management need greater emphasis,
and notes that its Office of Acquisition Management (OAM) is pursuing improvements.
Among other things, OAM has established a review board to oversee all major
acquisitions. Additionally, it is (1) evaluating Commerce’s delegation
and warrant program, with the goal of realigning contracting authorities to increase
overall effectiveness and accountability; (2) revising the certification program for
contracting officer’s technical representatives (COTRs) to require expanded
competencies and knowledge and to improve accountability, and changing the name of
this function to “contracting officer’s representative” to reflect its broader
responsibilities; and (3) emphasizing the need for increased use of performance-based
service contracting. It is assessing the effectiveness of these various initiatives
as well.

Finally, in response to increased scrutiny from our office, Congress, and OMB, and in
light of Commerce’s increasing use of purchase cards, OAM is implementing a purchase
card improvement plan that includes mandatory refresher training for all cardholders and



Major Challenges for the                    4                                March 2004
U.S. Department of Commerce                                  Office of Inspector General
approving officials. Under the auspices of the Chief Financial Officer and Assistant
Secretary for Administration, an intradepartmental, cross- functional team was formed to
evaluate options to further strengthen the Department’s purchase, travel, and fleet card
programs.

These actions address significant problems that we have identified in our acquisition-
related reviews; we will determine their effectiveness as we conduct our acquisition
review program.

NOAA/NWS Contract Modification. In this semiannual period, we continued
monitoring NOAA’s actions to correct the systemic deficiencies identified in our review
of a major modification to a NOAA/National Weather Service (NWS) contract for a
transition power source (TPS) for the NEXRAD weather radar. In our last semiannual,
we reported that NOAA’s Acquisition and Grants Office and NWS executed the
modification without adequate negotiation or appropriate review and oversight of the
contract, its management, or technical issues, and that NWS paid for defective
equipment. These deficiencies resulted in an estimated increase in contract costs of $4.5
million and purchase of a product that may not have been the best choice for NEXRAD.
(See September 2003 Semiannual Report, page 25.)

NIST Acquisition Management. We recently began a review of NIST’s acquisition
management process. As we reported in our last semiannual (see September 2003
Semiannual Report, page 32), our review of a NIST contract using the simplified
acquisition procedures test program for soliciting and evaluating commercial items
revealed that an error in citing the relevant procurement law caused some confusion and,
if applied, could have resulted in unfair penalties being assessed to certain offerors. Also,
an incomplete explanation in the solicitation document denied offerors full information
about the rules governing the procurement. In response to our review, NIST officials
agreed to improve their internal quality assurance program for procurement actions,
develop supplemental policy and guidance, and provide training to their acquisition
workforce.

MAJOR CONSTRUCTION AND RENOVATION PROJECTS

Contracts for large, costly, and complex capital improvement and construction projects
carry numerous inherent risks. This is an area of particular vulnerability for the
Department, given the many construction and/or renovation projects it has planned or
under way for Commerce facilities. Departmental leadership and OIG oversight are
needed to maximize Commerce’s return on its investment in these projects. Detecting and
addressing potential problems during the developmental stages rather than after a project
is begun or completed saves time and money. For this reason, we continue to monitor the
progress of the Department’s current and planned construction projects.

At present we are reviewing USPTO’s progress in completing, furnishing, and occupying
its new headquarters complex in northern Virginia (see Challenge 3). Over time, we will



Major Challenges for the                      5                                March 2004
U.S. Department of Commerce                                    Office of Inspector General
also assess several of the Department’s other major 4 renovation and construction projects,
which include the following:

    q   NOAA. According to NOAA, 21 projects are currently scheduled or in process
        including construction of a Pacific Region Center in Hawaii, projected to cost
        $210-$230 million; a fisheries research facility in Juneau, Alaska; and a Center
        for Weather and Climate
        Prediction in College Park,
        Maryland.

    q   NIST. The bureau continues its
        multimillion-dollar program to
        upgrade existing laboratories in
        Gaithersburg, Maryland, and
        Boulder, Colorado: it has begun
        occupying its new Advanced
        Measurement Laboratory in
        Gaithersburg and constructing a
        central utilities plant in Boulder.

    q   Census. Two buildings will be
        constructed at the bureau’s
        Suitland, Maryland, headquarters.
        Construction drawings are nearly
        completed.

    q   Commerce Headquarters
        (Herbert C. Hoover Building).
        The Department is planning the                        Artist’s rendering of the new Census headquarters complex
        modernization of its headquarters in                  in Suitland, Maryland, estimated to cost $331 million and
                                                              be ready for occupancy in 2008—at the height of the
        Washington, D.C., and has established a               bureau’s preparation for Census 2010.
        Renovation Program Office to oversee and              Source: Census Bureau
        monitor this multiyear, multiphase project
        through completion.




4
 According to the U.S. Department of Commerce’s Office of Real Estate Policy and Major Programs,
“major” projects are those costing $2.3 million or more.


Major Challenges for the                         6                                  March 2004
U.S. Department of Commerce                                         Office of Inspector General
CHALLENGE 3
SUCCESSFULLY OPERATE THE U.S. PATENT AND TRADEMARK
OFFICE AS A PERFORMANCE-BASED ORGANIZATION
USPTO’s operation as a performance-based organization continues to warrant special
attention. According to USPTO, the efficiency with which it issues patents has a huge
impact on the pace of technological advancement worldwide. The prompt registration
of trademarks protects commercial investment, informs consumer choices, and promotes
the availability of new goods and services.

Though USPTO has assumed responsibility for certain operational functions that were
once controlled or monitored at the departmental level, it is essential that the bureau
effectively use its expanded authority over budget allocations and expenditures,
personnel decisions and processes, procurement, and information technology operations
to process patent and trademarks in a high-quality and timely manner.

In June 2002, USPTO issued its 21st Century Strategic Plan. The 5-year plan was
intended to help the agency overcome the challenges accompanying its transition to
performance-based operations; successfully develop necessary personnel policies;
establish procurement and administrative policies as well as performance-oriented
processes and standards for evaluating cost-effectiveness; and, simultaneously, meet its
performance goals under the Government Performance and Results Act (GPRA) and
the timeliness goals of the American Inventors Protection Act.

In February 2003, USPTO revised this plan. According to the agency, it is now more
aggressive and far-reaching and provides a roadmap for major changes in patent and
trademark processes. These include steps to (1) improve and maintain patent and
trademark quality, (2) move to a paperless environme nt and promote e- government,
(3) enhance employee development, and (4) explore competitive sourcing. The plan also
calls for the agency to work with international intellectual property offices to create a
global framework for enforcing intellectual property rights.

Our office is currently reviewing aspects of USPTO’s Office of Human Resources in
response to complaints of noncompliance with merit system principles and a subsequent
request for review from the agency’s chief financial officer/chief administrative officer.
In addition, we are auditing selected aspects of USPTO’s trademark review process and
evaluating certain efforts to increase productivity and reduce the time it takes to process
trademark applications. The review covers fiscal years 1999 through 2003. Similarly,
we are evaluating patent examiner production goals, awards, and performance appraisal
plans to determine their effect on production.

We are also reviewing progress on construction of the agency’s new, state-of-the-art
headquarters complex in Alexandria, Virginia, and its plans for relocating to these
facilities. This project is one of the federal government’s largest real estate ventures.
When completed in 2005, the five-building complex will bring together the majority of

Major Challenges for the                     7                                March 2004
U.S. Department of Commerce                                   Office of Inspector General
USPTO employees and contractors, who are currently scattered among 18 buildings in
Crystal City, Virginia. USPTO has occupied two of the new buildings earlier than
anticipated and is working with the General Services Administration to ensure the project
stays on schedule.

Our current focus is USPTO’s management of the project—we are looking at the
agency’s handling of issues we identified during the project’s planning and design
phases, such as relocation strategies and actual versus estimated costs and completion
schedules. Accomplishing the relocation with minimal disruptions to operations is critical
to minimizing adverse impacts on costs, employees, and services to patent and trademark
applicants and the public.

CHALLENGE 4
CONTROL THE COST AND IMPROVE THE ACCURACY OF
CENSUS 2010

Few Commerce activities have more ambitious goals, higher costs, or more intensive
resource requirements than the constitutionally mandated decennial census, and with each
decade, this undertaking becomes more costly, complex, and challenging. Costs of $1
billion in 1980, for instance, rose to $2.6 billion in 1990, and to $6.5 billion in 2000. For
2010, Census estimates the cost will be                           CENSUS 2010 REVIEW AGENDA
between $10 billion and $12 billion. (Note:            In addition to work already completed or under way,
                                                       OIG plans a series of targeted reviews over the coming
Dollar amounts are not adjusted for inflation.)        months and years on key aspects of the following
                                                            areas:
Much has changed in the methods and                  q The plan for the 2010 census —its
technologies used for decennial census taking            completeness, as well as coordination and
                                                         integration of its elements.
over the past 3 decades. And during that time,       q Systems and software design, acquisition,
the nation’s population has increased and                development, testing, and security.
                                                     q Corrections to address and map information.
diversified dramatically. But the primary            q Field tests planned for 2004 and 2006.
weaknesses we have noted in monitoring the           q Conduct of the American Community Survey.
                                                     q Approach to measuring data quality.
1980, 1990, and 2000 decennials have                 q Conduct of the 2008 dress rehearsal.
remained the same and are at least partially         q Impact of construction and occupancy of
                                                         Census’ new headquarters on decennial
responsible for the ballooning costs:                    scheduling.
insufficient planning and lack of upfront            q Implementation of decennial operations
                                                         beginning in 2009.
funding for an operation that by its very
nature requires long-term vision and
development, as well as continued testing at key points along the way.

Our work on the 2010 decennial began when we issued Improving Our Measure of
America: What Census 2000 Can Teach Us in Planning for 2010. Using our
recommendations from that report, we have established a comprehensive agenda for
monitoring a broad range of critical decennial activities from their planning through
execution. Our goal, as always, is to support and enhance the bureau’s readiness by
identifying problems early, offering solutions, and informing the key decision- makers—
departmental officials, Congress, and the administration.

Major Challenges for the                            8                                   March 2004
U.S. Department of Commerce                                             Office of Inspector General
The Census Bureau has taken numerous steps toward improving 2010 operations and
controlling costs. In September 2002 it adopted a reengineered framework for conducting
the decennial: an American Community Survey to collect and tabulate long-form data
throughout the decade; an enhanced address list and geographic information database;
and a program of early planning, development, and testing for a short- form-only census.
The three-pronged strategy is aggressive and intended to capitalize on the latest
technology, such as handheld computers for nonresponse follow-up data collection,
which will incorporate a global positioning system to register the correct geographic
location of ho useholds. In addition, the Department is seeking an increased level of
upfront funding.

We have assessed Census’s progress in modernizing its MAF/TIGER processing system
thus far (see September 2003 Semiannual Report, page 19), and are concerned that the
bureau’s late start in establishing a strong project management structure and its lack of a
plan for accelerating its software improvement process may delay completion of the new
system, preventing it from being thoroughly tested before the dress rehearsal in 2008.
The successful redesign of this system is crucial to improving Census 2010 operations,
and it must be ready to support the dress rehearsal. We are closely monitoring this and
other aspects of systems and software acquisition and development, as well as the
bureau’s actions to ameliorate any problems we identify.

                                                OIG Recommendations for
                                              Improving the Decennial Census
    1.   Reach early consensus on the 2010 design to facilitate effective planning and obtain sufficient funding.
         Delays in finalizing the Census 2000 design and obtaining needed funding left insufficient planning, development,
         and testing time for many key components.
    2.   Produce accurate, complete address lists and maps. The bureau’s master address file (MAF) and associated
         mapping system (Topologically Integrated Geographic Encoding and Referencing, or TIGER) contained a higher-
         than-acceptable level of unreliability, which meant too many forms and too many enumerators could not reach the
         intended households.
    3.   Conduct a carefully targeted and aggressive public awareness campaign. The bureau’s efforts to increase
         public awareness of and participation in Census 2000 were successful, enabling the bureau to achieve a response
         rate of 67 percent—6 percentage points beyond the projected rate of 61 percent. Census needs to further refine its
         public outreach program to achieve even higher rates in 2010.
    4.   Strengthen quality control of nonresponse follow-up. Instances of falsified and questionable data in Census
         2000 required costly reenumeration and undermined confidence in the overall census results.
    5.   Implement clear policies and guidance for managing temporary staff. The logistics of hiring, training, and
         supervising nearly 1 million temporary workers require strong management policies and procedures.
    6.   Determine whether sampling has a role beyond measuring coverage. Sampling has been a contentious issue
         in the past two decennials, and initial plans to use it to improve coverage were ultimately overruled.
    7.   Implement rigorous system and software development processes and effective information security
         measures. The bureau’s approach to systems and software development for Census 2000 provided inadequate
         controls, insufficient testing, and poor or no documentation, all of which led to inefficiency and disruptive errors.
    8.   Upgrade and maintain contracting and program management expertise. The bureau lacked adequate in-house
         management skills to oversee decennial contracts and contractor-operated programs.
    9.   Generate timely and accurate management and operational information. The bureau lacked procedures for
         evaluating operations and thus failed to identify improprieties in a timely manner. Nor did it have expeditious
         methods for collecting and disseminating information to stakeholders.
   10.   Mitigate potential disruptions and distractions to the work environment and workforce. The bureau must
         have plans to counter the potentially negative impacts of two major events: the possible retirement of roughly half of
         the bureau’s decennial staff during this decade, and the anticipated move to new facilities in 2008—the year of the
         dress rehearsal for Census 2010.
 Source: Improving Our Measure of America: What Census 2000 Can Teach Us in Planning for 2010. U.S. Department of
 Commerce Office of Inspector General. Report No. OIG-14431, Spring 2002.




Major Challenges for the                                  9                                      March 2004
U.S. Department of Commerce                                                      Office of Inspector General
We are also focused on the bureau’s 2004 testing of new approaches to staffing census
operations and improving data quality and coverage. Specifically, we will evaluate (1)
enumerator hiring, training, and quality control processes; (2) new methods for
improving coverage of population and housing, including procedures to minimize address
duplication; (3) the effectiveness of improved definitions and methods for distinguishing
between group quarters and housing units; (4) the impact of handheld computers and
associated systems on enumerator performance; and (5) the efficiency and effectiveness
of support functions at 2004 local census office test sites.

CHALLENGE 5
INCREASE THE EFFECTIVENESS OF MARINE RESOURCE
MANAGEMENT
The National Marine Fisheries Service (NMFS) must balance two competing interests:
(1) promoting commercial and recreational fishing as vital elements of our national
economy and (2) preserving populations of fish and other marine life. Eight regional
fishery management councils, along with NMFS, are responsible for developing plans for
governing domestic fisheries in federal waters. Their combined goal is to prevent
overfishing, rebuild overfished stocks, and protect, restore, and promote the long-term
health and stability of U.S. fisheries.

Developing conservation and management measures requires collecting, analyzing, and
reporting demographic information about fish populations via stock assessments. These
reports are a key element of the fishery management process; they are used to determine
whether additional regulations are necessary to rebuild fish stocks or whether greater
fishing opportunities can be allowed. Because of their potential impact on commercial
and recreational fishing, these assessments are often controversial, and the methods used
to create the estimates typically undergo intense scrutiny by fishers and conservation
groups.

Following on our recent assessments of data collection processes and equipment used by
an NMFS science center to survey New England groundfish (see September 2003
Semiannual Report, page 30) and enforcement of fishing regulations by NMFS’ Office
for Law Enforcement (see March 2003 Semiannual Report, page 25), we reviewed the
agency’s observer program. Observers deployed on U.S. commercial fishing vessels
collect catch statistics, monitor bycatch and protected species interactions, and perform
biological sampling to obtain information that NMFS, industry, and academic
researchers use to supplement their own work and to aid in the management of living
resources. We reviewed seven programs to determine how NMFS ensures data quality,
and whether the data is meeting research and fishery management needs. Although we
found a number of best practices that may lend themselves to replication across all
observer programs, we noted several problematic issues: procedures for choosing
observers’ vessel assignments were improperly designed and/or implemented in ways
that could potentially introduce bias; retaining qualified observer staff is difficult; and

Major Challenges for the                     10                               March 2004
U.S. Department of Commerce                                   Office of Inspector General
NMFS did not adequately monitor the performance of the programs or of contractors
hired to provide observers. We made recommendations to address each of these issues
(see March 2004 issue, page 30), and also suggested that—to foster better industry
cooperation with the observer program—NMFS’ National Observer Program office and
the regional science centers do more outreach to the fishing industry.

Also during this semiannual period, we concluded an audit of NMFS’ acquisition of
services to secure fishery research support (see March 2004 Semiannual Report to
Congress, page 33). This review was prompted by our audit of an NMFS financial
assistance recipient conducting biological sampling and
data collection for Pacific salmon, which turned up information suggesting that NMFS
may have inappropriately used cooperative agreements to acquire the services. Our
follow-up assessment revealed that these services were for work that directly benefited
the federal government, and as such, should have been secured by contracts, not
cooperative agreements.

CHALLENGE 6
PROMOTE FAIR COMPETITION IN INTERNATIONAL TRADE
To compete effectively in today’s global marketplace, many U.S. companies need help
identifying and taking advantage of new or expanded export market opportunities as well
as addressing unfair trade practices, trade disputes with foreign firms, noncompliance
with or violations of trade agreements, inadequate intellectual property protection, and
other impediments to fair trade. Commerce must ensure that its export promotion
assistance and trade compliance and market access efforts adequately serve U.S.
exporters and its enforcement of U.S. trade laws helps eliminate unfair competition from
imports priced at less than fair market value or subsidized by foreign governments.

To help meet the challenges in highly competitive world markets, Commerce and its
International Trade Administration (ITA) work with the Office of the U.S. Trade
Representative, the Departments of State and Agriculture, and numerous other federal
agencies to monitor and enforce trade agreements. The number and complexity of those
agreements have increased substantially in recent years, and the Secretary of Commerce
has made monitoring and enforcing trade agreements a top priority for ITA and the
Department as a whole. Over the years, Commerce has received additional funding
for trade compliance activities, such as placing compliance officers overseas in several
key markets. Our work has shown that the increased funding enabled ITA to attract
needed staff for its Market Access and Compliance unit without having to request
special hiring authority or offer recruitment incentives (see March 2003 Semiannual
Report, page 20).

Commerce has numerous mechanisms to monitor and help enforce U.S. trade agreements
and review trade complaints. When warranted, its Trade Compliance Center forms teams
to follow up on complaints and bring them to satisfactory conclusion. In addition,


Major Challenges for the                   11                                March 2004
U.S. Department of Commerce                                  Office of Inspector General
ITA’s overseas offices, operated by the U.S. and Foreign Commercial Service
(US&FCS), as well as its other operating units perform a substantial amount of market
access and trade compliance work. Overall, ITA’s approach to trade compliance and
market access is to engage the issue at the working level wherever possible, thus avoiding
formal dispute settlement structures such as the World Trade Organization, which can
take years to resolve trade disagreements. The Department and ITA pursue important
matters of policy—such as intellectual property rights protection, standards development,
trading rights, and distribution services—in government-to-government negotiations.

Commerce’s many overseas US&FCS offices and domestic U.S. Export Assistance
Centers (USEACs) help U.S. companies identify specific export market opportunities or
trade leads and offer other trade promotion and export finance counseling services,
especially to small and medium-size firms that are new to exporting or looking to expand
their overseas markets. During this semiannual period, we reviewed three USEAC
networks—Chicago, Pacific Northwest, and Philadelphia—assessing their management,
operations, and performance; their ability to provide value-added export counseling to
U.S. companies; and their success at developing relationships with federal and nonfederal
trade promotion partners (see March 2004 issue, page 24). In all three cases, we found
that client satisfaction was high, strong relationships generally existed with local partners,
and financial and administrative operations were generally sound. However, in all three
networks, we found some inconsistencies in reporting and oversight that led to overstated
export success dollar values—one key barometer of performance—for the periods we
reviewed. When presented with these issues, ITA demonstrated that it was aware of and
was taking systematic organization-wide steps to address some of these reporting
problems.

We are currently analyzing the crosscutting, systemic issues we identified in these three
reviews. One such issue is that US&FCS is not recovering the full costs for some of its
fee-based products and services. OMB Circular A-25 requires federal agencies to recover
the full costs of goods and services they provide to customers when such resources
convey benefits beyond those enjoyed by the general public. In addition, US&FCS’ own
fee policy conflicts with OMB’s in that it requires recovery of direct costs only. ITA has
asked OMB to waive the requirement and is awaiting a decision. In requesting the
waiver, ITA contends that it is not able to comply with Circular A-25 because
compliance would jeopardize its congressionally mandated mission to increase U.S.
exports.

Our USEAC findings mirror those of our recent reviews of overseas operations.
Inspections of US&FCS posts in Greece and Turkey revealed that, again, most customers
were satisfied with the products and services they received, but both posts had overstated
the value of their export successes. (For more detail on Greece, see September 2003
Semiannual Report, page 22. For Turkey, see the March 2003 issue, page 19.) As noted
earlier, however, we learned during follow- up discussions with ITA management that
ITA was addressing this issue organization-wide to ensure that US&FCS staff
consistently adhere to reporting guidelines.



Major Challenges for the                     12                                March 2004
U.S. Department of Commerce                                    Office of Inspector General
We will continue our oversight of the Department’s promotion of U.S. exports and also
look at Commerce’s efforts to track, detect, and combat unfair competition to U.S.
industry in domestic markets.

CHALLENGE 7
ENHANCE EXPORT CONTROLS FOR DUAL-USE COMMODITIES

In today’s political climate, hostile countries and terrorist groups seeking weapons of
mass destruction and the systems to deliver them pose new threats to global security and
U.S. foreign policy goals. In this environme nt, advancing U.S. national and economic
security interests through export controls has become an ever greater challenge for the
agencies that share this responsibility, particularly for Commerce’s Bureau of Industry
and Security, which oversees the federal government’s export licensing and enforcement
system for goods and technologies that have both civilian and military uses (“dual- use
commodities”). Strengthening dual- use export licensing and enforcement requires new,
comprehensive legislative authority to replace the expired Export Administration
Act of 1979 and appropriately address current export control needs and realities. Passed
during the Cold War, the act sought to prevent the export of critical goods and
technologies to Communist bloc countries. Legislation is needed to address the new
threats posed by terrorism as well as to bolster BIS’ regulatory authority, strengthen
penalties for violations, and maintain strong export controls while encouraging other
countries to do the same.

Given the importance of export controls to national security, we devote considerable
attention to the challenges facing BIS. The National Defense Authorization Act (NDAA)
for Fiscal Year 2000, as amended, directed the inspectors general of the Departments
of Commerce, Defense, Energy, and State, in consultation with the directors of the
Central Intelligence Agency and the Federal Bureau of Investigation, to report to
Congress by March 30, 2000, and annually until the year 2007, on the adequacy of export
controls and counterintelligence measures to prevent the acquisition of sensitive U.S.
technology and technical information by countries and entities of concern. In addition,
NDAA for FY 2001 requires the IGs to discuss in their annual interagency report the
status or disposition of recommendations made in earlier reports submitted in accordance
with the act. To date, we have completed five reviews of export controls in compliance
with the act as well as four separate follow-up reports. Together with the other IGs, we
have also issued five interagency reports on export controls for dual- use items and
munitions.




Major Challenges for the                   13                               March 2004
U.S. Department of Commerce                                 Office of Inspector General
REVIEW OF DEEMED EXPORT CONTROLS

To comply with the NDAA’s FY 2004 requirement, we sought to assess (1) the
effectiveness of the dual-use deemed export regulations and policies, 5 including their
implementation by BIS, and (2) compliance with the regulations by U.S. industry and
academic institutions. We also followed up on prior OIG findings and recommendations
from our March 2000 report, Improvements Are Needed in Programs Designed to Protect
Against the Transfer of Sensitive Technologies to Countries of Concern (IPE-12454-1), as
appropriate.

Our report highlights some areas that are working well, such as certain aspects of BIS’
deemed export outreach program. However, we identified problems that hamper the
efforts of both BIS and the U.S. government to more effectively prevent the transfer
of sensitive technology to foreign nationals from countries or entities of concern while
they are in the United States. To address these issues, we recommended that BIS (1)
modify or clarify some of      Number of Deemed Export License Applications Processed in FYs 2000-2003
the dual-use deemed
export licensing
                                        Number of Applications




                                      1000     866 826
regulations and policies,                                  777
                                       800
                                                       592
(2) expand its efforts to              600
raise awareness of                     400
                                                                                                  196
deemed export control                  200                                                   99       110 60
                                                                        3 3 4 9
regulations by                           0
refocusing its outreach                            Approved               Rejected          Returned Without
and periodically                                                                                   Action
updating its deemed                                            Status of Application
export guidance, and (3)                            2000         2001          2002         2003
institute a deemed
export compliance program.         Source: Export Administration, Bureau of Industry and Security
We also encouraged BIS to
work with Congress and the
National Security Council to
reexamine the broadly applied licensing exemptions contained in the Export
Administration Regulations that allow foreign nationals access to otherwise controlled
technology. (See March 2004 Semiannual Report, page 14.)

In addition to our assessment of Commerce-administered deemed export regulations and
policies, the interagency OIG review team (Commerce, Defense, Energy, State, and the
CIA) and the Department of Homeland Security’s OIG6 completed a crosscutting


5
  According to the Export Administration Regulations, any release to a foreign national of technology or
software subject to the regulations is deemed to be an export to the home country of the foreign national.
These exports are commonly referred to as “deemed exports,” and may involve the transfer of sensitive
technology to foreign visitors or workers at U.S. research laboratories and private companies.
6
    Homeland Security participated in this year’s assessment because of the nature of the review topic.


Major Challenges for the                                         14                        March 2004
U.S. Department of Commerce                                                Office of Inspector General
review of the adequacy and effectiveness of government-wide deemed export control
laws and regulations to determine if the y protect against the transfer of controlled U.S.
technologies and technical information. The interagency OIG report will be discussed
in detail in our September 2004 report to Congress.


FOCUSED PRIORITIES

While BIS, the administration, and Congress work to (1) target federal licensing and
enforcement efforts on exports that present the greatest proliferation and national security
risks and (2) streamline or eliminate controls that hamper trade and are not necessary
to address national security or foreign policy concerns, congressional enactment of a new
Export Administration Act is vital to the success of the U.S. government’s efforts to
enhance export controls. We will continue to monitor BIS’ efforts to improve dual- use
export controls through the annual reviews required by the National Defense
Authorization Act.

CHALLENGE 8
ENHANCE EMERGENCY PREPAREDNESS, SAFETY, AND
SECURITY OF COMMERCE FACILITIES AND PERSONNEL
Since our March 2002 report on the status of emergency preparedness and security
programs at a cross-section of Commerce facilities, the Department has made significant
improvements, but the challenge remains. Heightened security requires a variety of
measures: infrastructure risk assessments, emergency backup sites, upgraded physical
security, and employee awareness and training, to name a few. The Department has made
significant progress in these areas, but it will need to regularly revisit that progress to
ensure it adequately provides for the safety and security of employees and operations, and
must make modifications as needed.

Commerce has taken a number of actions to enhance security thus far this year. This
includes its completion of a new draft policy on security and a new chapter in its security
manual, both of which relate to foreign national visitors and guest researchers in
Commerce facilities. The draft policy is currently being coordinated with Commerce
bureaus. The Department also is developing a counterespionage risk assessment program,
using an emergency operations center to oversee crisis management response during and
after an emergency, updating its continuity of operations and emergency operations
plans, and providing regular information and training on emergency preparedness to
Commerce employees.

Given the size of its workforce and the geographical spread of its hundreds of facilities
nationwide and at more than 150 overseas locations, complying with recent security-
related guidance is a complex, resource- intensive undertaking for Commerce. Our
inspections of overseas posts and domestic U.S. Export Assistance Centers operated by


Major Challenges for the                     15                                March 2004
U.S. Department of Commerce                                    Office of Inspector General
the U.S. and Foreign Commercial Service identified the need for more timely security
upgrades, improved oversight of security operations, and in some cases, specific security
improvements.

Security of U.S. embassies throughout the world remains an important priority. The
Department has requested an appropriations increase of $4.5 million in FY 2005 to help
fund ITA’s share of the State Department’s Capital Security Cost Sharing Program,
which proposes to build more than 150 high-security embassies and consulates during the
coming years, at a total cost of more than $15 billion. Under the cost-sharing program, all
agencies represented in U.S. embassies and consulates will be charged on a worldwide
per capita basis.

We believe Commerce is making progress on many emergency preparedness, safety, and
security fronts, but the challenge is massive. We will continue to monitor its efforts and
report our findings accordingly.


CHALLENGE 9
STRENGTHEN FINANCIAL MANAGEMENT CONTROLS AND
SYSTEMS

The Chief Financial Officers Act of 1990, the Government Performance and Results Act
of 1993, the Government Management Reform Act of 1994, and the Federal Financial
Management Improvement Act of 1996 require that age ncies prepare information needed
by Congress, agency executives, and the public to assess the management of federal
programs and operations. Also required are audits of an entity’s financial statements to
determine whether its financial position and results of operations are presented fairly
and whether its financial management systems comply with federal requirements.

The Department as a whole has made substantial improvements in financial management,
and received an unqualified (clean) opinion on its FY 2003 consolidated financial
statements—the fifth consecutive year for this accomplishment. The Department resolved
the weaknesses in its accounting for personal property and made noteworthy
improvements in its financial management systems (both problems noted in the previous
year’s audit). One reportable condition related to financial management systems was
identified (which had in prior years been a material weakness 7 ) as well as two repeat
findings of noncompliance with laws and regulations (see March 2004 Semiannual
Report, page 39).


7
  Material weaknesses are serious flaws in the design or operation of an internal control component that
increase the risk that errors, fraud, or noncompliance in material amounts may occur and not be readily
detected. Reportable conditions are significant deficiencies in the design or operation of an internal control
component that could adversely affect the organization’s ability to record, process, summarize, and report
financial statement data.


Major Challenges for the                              16                                   March 2004
U.S. Department of Commerce                                                Office of Inspector General
In FY 2003, the Department substantially complied with the Federal Financial
Management Improvement Act and OMB Circular A-127 requirements for a single,
integrated financial management system, by having completed implementation of the
Commerce Administrative Management System (CAMS) 8 at all but one bureau, and
using it in conjunction with a Commerce-wide database for consolidated financial
reporting. Ten departmental entities, including the Bureau of the Census and NOAA,
used CAMS as their financial system of record in fiscal year 2003. In addition, CAMS
was deployed at NIST at the beginning of FY 2004, thus replacing the only remaining
system not in compliance with federal requirements.

Despite these accomplishments, maintaining a clean audit opinion remains a major
challenge under the accelerated financial reporting dates mandated by the Office of
Management and Budget (OMB) for fiscal year 2004. The Department must now have its
FY 2004 consolidated financial statements prepared and audited within 45 days of fiscal
year-end.

CHALLENGE 10
CONTINUE TO IMPROVE THE DEPARTMENT’S STRATEGIC
PLANNING AND PERFORMANCE MEASUREMENT IN
ACCORDANCE WITH THE GOVERNMENT PERFORMANCE AND
RESULTS ACT
Congress and agency managers require relevant performance measures and credible
performance data to effectively oversee federal programs. The Government Performance
and Results Act of 1993 was designed to ensure the availability of such data by
mandating that agencies set goals for program performance and report outcomes
measured against them. The validity of reported performance results is essential in order
for government agencies to develop integrated budget and performance information and
use performance data to make funding decisions.

Over the past several years, we have reviewed the collection and reporting of
performance data by 6 of Commerce’s 14 operating units. Our audits have identified the
need for (1) stronger internal controls to ensure that reported data is accurate and (2)
improved explanations and disclosures of results to clarify and enhance the usefulness of
the results. In every case we offered recommendations to address these problems.

During this past semiannual period, these same issues emerged in our audit of
performance me asures at the Bureau of the Census. We found that the reliability and
usefulness of reported information is undercut by (1) imprecise measures and related
targets, (2) incorrect descriptions of verification procedures, and (3) conflicting and

8
 CAMS is a software package based on a commercial off-the-shelf accounting system application that was
extensively modified and substantially augmented with capabilities to support both departmental
accounting and financial management needs as well as individual Commerce unit requirements.


Major Challenges for the                         17                                  March 2004
U.S. Department of Commerce                                          Office of Inspector General
incomplete disclosures. (See March issue, page 22.) An in-progress audit at NOAA is
finding similar issues, suggesting a possible systemic weakness in these areas.

The operating units for which we have completed audits have been responsive to our
recommendations: they have generally developed action plans to address identified
deficiencies and have revised previously reported performance information accordingly.
As each unit takes such steps, we are more confident that performance data will become
increasingly reliable and useful, and thus better serve the purpose and intent of GPRA.




Major Challenges for the                   18                               March 2004
U.S. Department of Commerce                                 Office of Inspector General
